No.

3Sn the Supreme £Court of the Initeb States
DR. XIULU RUAN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
CERTIFICATE OF SERVICE
I, D. Hunter Smith, a member of the Bar of this
Court, hereby certify that on this 5th day of April,
2021, I caused to be served by overnight carrier and
by electronic means three copies of the Petition for a
Writ of Certiorari in the above-captioned case on each
of the following counsel:
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent United States of America

David Jean Couch
PO Box 90308
Atlanta, GA 30364
(404) 210-0452
djcouch.law@gmail.com
Counsel for Respondent Dr. John Patrick Couch
I further certify that all parties required to be
served have been served.

"82,
p.faro: smith

April 5, 2021

